,





                        AUDIT OF AN EARLY DEFAULTED LOAN TO

                             [           Fl'.   4

                                      AUDIT REPORT NO. 0-17

                                                April 28, 2000




     Tbe linding in this report is the conclusion of the OIG's Auditing Division based on testing of tbe 

     auditee's operations. Tbe linding and recommendations are subject to review, management decision, 

     and corrective action in accordance with existing Agency procedures for follow-up and resolution. 

     This report may contain proprietary information subject to the flee·I'sions of 18 USC 1905 and must 

     not be released to tbe public or another agency without permission of the Office of inspcc~c, 

     General. 





                                                                                                             l
                      US SMALL BUSINESS ADMINISTRATION 

                         OFFICE OF INSPECTOR GENERAL 

                              Washington, DC 20416 





                                                                       AUDIT REPORT
                                                                Issue Date: April 28, 2000
                                                                Report Number: 0-17



To:            Rodney W. Martin, District Director


                li:J1lX
                                     ffice


From:          Robert G. Seabrooks, Assistant Inspector General
                for Auditing

Subject:       Audit of an Early Defaulted Loan to
               [6<.4                             J

        Attached is a copy of the subject audit report. The report contains one finding and
two recommendations addressed to your office. Your comments and the comments of the
lender have been synopsized and included in the report.

        The recommendations are subject to review and implementation of corrective
action by your office in accordance with existing Agency procedures for follow-up.
Please provide your management response to the recommendations using the attached
SBA Forms 1824, Recommendation and Action Sheet.

        Any questions or discussion of the issues contained in this report should be
directed to Garry Duncan at 202-205-7732.


Attachment




                                                                                              I
                                           AUDIT OF AN 

                                     EARLY DEFAULTED LOAN TO 

                               L                    ~')<   .4                                 ]



                                           TABLE OF CONTENTS 





Background ............................................................•....................                         I


Audit Scope and Objective...... .. . ...... ... ... ... .. . . .. .. ... .... .. . ... .. . ... ... .... .. .. •.. . I 


Results of Audit..................... ......... .. ....... .. ........... .. ... .. . ... .. .... ... ....           I


Finding 


      The Lender did not Adequately Determine the Borrower's 

       Repayment Ability........... .................. ....... ...... ... .......... .....                           I




Appendices

      A--Lender cash flow analysis
      B --Lender comments
      C --Audit report distribution
                                      BACKGROUND

    The Small Business Administration (SBA) is authorized under section 7(a) of the
Small Business Act to provide financial assistance to small businesses in the form of
government-guaranteed loans. SBA guaranteed loans are made by pa.'iicipating lenders
under an agreement (SBA Form 750) to originate, service, and liquidate loans in
accordance with Administration rules and regulations.

    Heller First Capital Corporation (lender) processed an $855,000 loan (number
r: 	       . )€ <.. 't                      ::l (borrower) under Preferred Lender
Program procedures. The purpose of the loan was in part to refinance a land note,
construct a facility ( C       E-)( • 4                             :n.
                                                                     and purchase
inventory, equipment, and machinery. Loan proceeds were disbursed between September
1996 and February 1997 with the loan placed in liquidation in July 1998.

                           AUDIT SCOPE AND OBJECTIVE

        This report provides the conclusions ofan audit conducted on an SBA guaranteed
loan. The loan was judgmentally selected for review as part of the Office of Inspector
General's ongoing program to audit SBA guaranteed loans charged off or transferred to
liquidation within 36 months of origination (early default).

       The audit objective was to determine whether the early default was caused by
lender or borrower non-compliance with SBA requirements. SBA and lender loan files
were reviewed and district office and lender personnel were interviewed. The audit was
accomplished between May and August 1999. The audit was conducted in accordance with
Government Auditing Standards.

                                   RESULTS OF AUDIT

FINDING 	 The Lender did not Adequately Determine the Borrower's Repayment
          Ability

      The borrower defaulted because sufficient cash flow was not available to service
 business debts. We concluded that the borrower lacked repayment ability at the time of
 loan approval and that the lender did not perform a proper evaluation of the new
 business's projected income. As a result, the lender had not complied with SBA loan
 origination requirements and the Administration could lose as much as $635,981, before
 collateral liquidation, if the guarantee is purchased.

 Loan considerations

      SOP 50 10 3 and 50 11 state that the ability [0 repay a loan from the cash flow of the
 business is the most important consideration in the loan making process. When a
 historical cash flow is not available, as in the case of a new business, a realistic projection
 offuture earnings is required. An evaluation of this projection must include testing of the
projected income statement, or using a projected cash flow and income statement to
determine expected gross and net profit margins for the new business. SOP 50 11 points
out that most private lenders avoid making new business loans because of the inherent
uncertainties of repayment. On the other hand, about one-third ofSBA's loans are made
to new businesses, even though losses are higher on these loans than on those to
established businesses. The most common reason for new business failure is the inability
to generate an adequate sales volume for viable operations.

Cash flow projection

     The lender's evaluation of the borrower prepared cash flow projection and the
lender's net income calculations for break-even, best case, and worst-case scenarios are
shown in Appendix A. The lender's evaluation was incomplete and did not consider all
relevant factors for determining reasonable cash flow and repayment ability.
Specifically:

    Sales volume forecasts The lender did not ensure that a required realistic
   projection of future earnings was utilized to underwrite this SBA loan. The lender
   used a t ~)C..q 1 forecast model to calculate the break-even cash flow projection for the
   business. However, the applicability of the ['=1<.4 J model was not evaluated.

    Fifteen months after the loan was approved, the borrower requested r Q<:A J to
    provide an explanation as to why projected sales forecasts had not been meet. In an
    October 30, 1997 letter, [ foX ,'+ ] told the borrower that their model was built using
  . 1,200 actual r €)<·41sites with over 200 variables associated with each location (e.g.
    facility, demographic, lifestyle, traffic, etc.). The model's cash flow projection is
    based on a mature (e)(A J station. Site maturity is the result of several variables in
    the market place. Variables such as market growth and current competition must be
    considered if the model is to provide an accurate cash flow projection.

   Texaco stated that their analysis of the business site showed that the current
   competitive environment was one of near saturation with over 40 competitors within
   a 3-mile radius. Also the census showed a population decline from 1980 to 1990 with
   a very slight increase (.3 percent) expected by 2002. Further, the small number of
   ['   f. f .4-               "J would increase the time needed to reach maturity. Had
   these factors been taken into consideration, [€ ) I.'I ] stated that 3 years would be
   required for the business to reach maturity and realize the cash flow projected by the
   model.

   If the lender had properly applied the [~y.. '"I ] model, it should have been evident that
   projected [         E-,<, 4-               "J sales volume based on a mature business
   were overstated. The higher sales volume at the 3-year maturity point therefore was
   not realistic for the first and second year cash flow projections. Since the ieadt:r did
   not properly apply the model, cash flow and repayment ability were overstated.


                                             2




                                                                                                i




                                                                                                \
   Ratio analysis      The lender's evaluation did not include either a ratio analysis or a
   test of ratios against industry averages. According to SOP SO 11, a ratio analysis is
   vital for understanding and interpreting financial data of prospective borrowers. The
   SOP also states that pertinent ratios help determine if there is a reasonable assurance
   that the loan can be repaid. After a thorough review of the lender loan files and
   interviews with the lender, we determined that there was no evidence to show that
   such analysis had been performed.

   The only document that we found that resembled a ratio analysis or projection was
   contained in the lender's evaluation of the loan. It was difficult to determine what the
   numbers in this document represent. There were no clear-cut projections by year or
   month that presented expected cash flow or analyzed the borrower's ability to repay
   the loan during the start-up phase of the business.

    Therefore, we concluded that the lender approved the loan based on an incomplete
cash flow projection. Accordingly, the lender did not comply with SBA loan origination
requirements.

                                   RECOMMENDATIONS

We recommend that the San Antonio District Office take the following actions:

       lA. 	 Process a request for denial ofliability for loan number r     ~.I-/-    .:)

       lB. 	 Remind the lender of its obligations to comply with SBA regulations,
             policies, and procedures for originating loans by:

               ~ 	 obtaining the   current market conditions present at the time of loan
                    origination,
               ~ 	reflecting  the impact of those conditions upon the expected earnings of
                    the business and the business' ability to repay loan, and
               ~   	considering the time required to achieve full business maturity in
                    projecting earnings of start-up businesses.


District office action

       The District Office forwarded a request for denial of liability to SBA Central
Office. The District Office did not respond to recommendation lB.

Evaluation of district office action

        We reserve our eval~ticr. of SBA actions until the Central Office makes a denial
of liability determination. If a denial action is required, then the lender notification per
recommendation 1B will be necessary.

                                               3
Lender comments

        The lender did not agree with our audit conclusions. The failure of the business
and subsequent default was attributed to the borrower's poor health and unexpected heart
attack. The lender also stated "While the borrower struggled to repay the loan, there was
no evidence of fraud or misrepresentation, nor any lack of commitment to the program or
the community."

Evaluation of lender comments

        The lender's comments do not accurately present the facts. Our discussions with
the store manager (C            GJ<. . '"               -:J) disclosed that the borrower's r~·t.    ]
G      ~ .~           J ill health had very little to do with the failure of the business. The
borrower's L           10K . Co                     J several days before the store closed, and
five months after the borrower had contacted [fl(. q 1 to question the legitimacy of the
projected sales figures for a (           c'/. . >\ _         "] at that location. Therefore, the
lender's assertion that the failure of the business and subsequent default was due to the
borrower's unexpected poor health [ fl<. I.            J lacks merit. The business was
failing prior to the borrower's [ E"· b         :J

       In our opinion, the lender's lack of evaluation of the borrower's projected income
was the reason for the loan default. The lender had not satisfied SBA requirements to
ensure that a realistic projection of future earnings was utilized prior to underwriting the
SBA loan. Had such an evaluation been performed, it is unlikely that the loan would
have been approved.




                                                4

 Jacome SlalomeDI
                                 -.
                                 c......
                                      FYE               -   FYE
                                                                              a-
                                                                              c-
                                                                                    FYE
                                                                                                         Worst
                                                                                                         ease
                                                                                                             FYE
                                                                                                                                  Appendix A

                                                                                                                                Pmjraioas
                                    12131193      %                      %                       %                        %                    %

  Sal.s                            SI,!544.905           SI.366,812            SI,892,.59O                SI.100,OOO                     SO
  COsl ofGoods Sold                    813.721    57%     1.146,131     84%     1,514.072        80%          935.000     U%               0'­

Gross P..,1I1                         661,184     43%       22D,681     16%        378,.518      20%         165,000      IS%             0'-

 GIt.AExp.....                        149,069     10%       110,000      8%        160,000        .%         100,000       9%             0'­
 Officers Salary                            0      0%             0      0%              0        0%               0       0%             0'­
 Deprec:ialion                              0      0%             0      0%              0        0%               0       0%             0_
 RalE",,",sc                                0      0%             0      0%              0        0%               0       0%             0_

Operallq
I.-me                               5512,115     33%       5110,611      8%      5211,.511       12%        U5.OOO         6%            10
                                                                                                                                              -­
                                                                                                                                               --
 IDIaat Expense                        17.004      6%        17.000      6%           17.000     5%             17.000     8%            10
 OIlIer IDcome                              0      0%         1,43'      0%            1,43' .   0%              1.D24     0%            10
 Oth.rExp.....                              0      0%             0      0%                0     0%                  0     0%            SO

Net Incom. B.fon: Taxes             5425.111     28%        S25,1I6      2%     S132,953         7%        (S20,976)      ·2%            SO

                                                                                                                                              .­
                                                                                                                                              -
 Income Taxes                               0     0%              0      0%                0     0%                 0      0%            SO

Net Jacome                          $0415.111    21%        $25,116      2%     5132,953         7%        (S20.976)      ·2%            SO
                                                                                                     f
Commeau
Broai<-even analysis assumes that 70% ofth. [ :>I-        ] sales will b. mad. or 860.739 al an average pric. of51.10
and the   r:: ~        -::J will be at 535.000. month  inslCad  ofS45.000. or a lolal 0($420.000 for th. year
Gross profil is 10% of c;.... "1. and 30% on L       ';If       -:J
Other Income is a .02 rebate from C               A                        _-:1
The borrower presenled a cash flow. which doa. not properly calculate CGS. It i. shown here for
infonnative purposes.




~ol   Wonb Recoacilialloa

&epninl Net Wortb                           0               H,I4I                         0                         0

 PlasNetJncome                      425.111                 25,116                 132,953                  (20.976)
 Less WlIIIdrawaII
 AcJjUSIIIIIIIII                    321.263                121.964                 132,953                  (20.976)

ElIding Net Worth                   596,841                      SO                      SO                        SO

CommeDa                                                                                                                              .




                                                                                ...   _--_ ...   -~-----                 --_.-._--_._­
                                                                                                         Appendix B
 Heller Financial, Inc.
 900 Circle 75 Parkway, Suite 900
 Atlanta, Georgia 30339
 Telephone: (770) 980-6016
 Facsimile: (770) 980-62 t 5



H    Heller Financial                                                          L    E1-.. ft,
                                                                                Deputy General COUlUel
                                                                                                         1




    February 29, 2000

('     ~.I>            ::J
 Small Business Administration 

 Office of Inspector General 

 4300 Amon Carter Blvd., Suite 116 

 Fort Worth, Texas 76155 


    Re:      Audit of an Early Defaulted Loan to [.

    Dear [     ~. (.,     J
 This letter is in response to the audit of the early defaulted loan, (.
 We disagree with the results of your audit.

LEX· '\ J  was a SBA 7(a) loan to an underserved market, to a borrower with good management
 experience who was to construct and operate what was to be one of the nicest branded
['      E'l\. '-+              :J in the area. The Borrower had successfully owned and operated a
L       ex. 4            ] for 3 years prior to our transaction, in addition to previous management
 experience in other industries.

 While there is no question the borrower was struggling financially, it is clear that the business
 failed, actually closed, because of the borrower's poor health and r                 €~. "                J
( €".. b         ]11 is true, we relied heavily on [,",. '\] projections. [€ j i.'1 J was experienced in the
 industry and we thought the brand and franchise would bring added value. At the time, -C E)f.. 'I J
 was considered a very reliable source of information who also had a vested interest in the
 success of the location. [et.. 4 J would make no money from a failed store.

 This store was, and is, one of the nicest in the area. Again, this is an underserved market and
 oftentimes, newly constructed, branded franchises bring not only value to the location but
 revitalization to the area. The borrower put substantial personal cash into the deal and was
 committed. Who knows for sure what might have happened had the borrower's health been
 better.

 While the borrower struggled to repay the loan, there was no evidence of fraud or
 misrepresentation, nor any lack of commitment to the program or the community. Sometimes
 loans fail and in hindsight, with full clarity of vision, it is easy to say there was not sufficient cash
 flow. However, at the time we made the loan, we thought this was a prudent loan within the SBA
 guidelines and more importantly, was good for the community and the underserved market.
                                                                                                        Appendix B
          L GiC'!o 

          Page 2 

           02129100 





       H .Heller Financial
          As we have stated on numerous occasions, we value our relationship with the SSA and each
          district we do business. We feel this loan was adequately underwritten but we will work with the
          local office as appropriate.

          Cordially,
          HELLER FINANCIAL, II'<C.




          c

          DepDt9 General Counsel




_. 

                                                                                     AppendixC

                            AUDIT REPORT DISTRIBUTION


Recipient                                                                    Number of Copies

District Director
 San Antonio District Office--------------------------------------------------­         2

Deputy Associate Administrator
 Capital Access------------------------------------------------------------------        I

General Counsel----------------------------------------------------------------         2

Associate Administrator for
 Financial Assistance-------------------------------------------------------------       I

Associate Administrator for
 Field Operations----------------------------------------------------------------        I

Office of Chief Financial Officers
 Attn: Jeff Brown----------------------------------------------------------              I

General Accounting Office-------------------------------------------------­              I
